No. 19-1265

In the Supreme Court of the United States
FRIENDS OF DANNY DEVITO, ET AL.,
Petitioners
v.
TOM WOLF, GOVERNOR, ET AL.,
Respondents
CERTIFICATE OF COMPLIANCE
I hereby certify that the Brief in Opposition to Petition for Certiorari in the
above case contains 8,006 words within the meaning of Sup. Ct. R. 33.1. In making
this certificate, I have relied on the word count of the word-processing system used to
prepare the document, and I am a member of the bar of the Court. A copy of this
certificate has been served on counsel for petitioners.

s/ J. Bart DeLone
J. BART DELONE
Chief Deputy Attorney General
Dated: August 21, 2020

